A

Case: 19-13902

Date Filed: 03/17/2020

Page: 1 of 6 '

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13902-G
RAYMOND J. RAMIREZ,
a.k.a, Rene Ramirez,
Petitioner-Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent-Appellee.
Appeal from the United States District Court
for the Southern District of Florida
ORDERRaymond J. Ramirez, a pro se Florida prisoner, moves for a certificate of
appealability (“COA”) to challenge the denial of his 28 U.S.C. § 2254 motion. In
his pro se § 2254 petition, Mr. Ramirez raised four grounds for relief, arguing that
(1) the state court lacked jurisdiction to convict and sentence him because it violated
Florida’s speedy-trial rule, Fla. R Crim. P. 3.1910); (2) trial counsel was ineffective
in failing to file a motion for discharge or dismissal based on the court’s failure to
comply with the speedy-trial rule; (3) the state court denied him equal protection, in

Case: 19-13902

Date Filed: 03/17/2020

Page: 2 of 6

violation of the Fourteenth Amendment, because the laws were “not applied] to
Petitioner equally being similarly situated”; and (4) the state court denied him due
process by denying him an evidentiary hearing pn his speedy-trial habeas claims.
We deny Mr. Ramirez’s request for a COA, because reasonable jurists would agree
that his claims are unavailing.
A COA may issue “only if the applicant has made a substantial showing of
the denial of a constitutional right” Miller-El v. Cockrell. 537 U.S. 322,327,123
S. Ct. 1029,1034 (2003); see 28 U.S.C. § 2253(cX2). An applicant for a habeas
,

•

petition meets this standard by showing that “reasonable jurists could debate
Whether (or, for that matter, agree that) the petition should have been resolved in a
different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Slack v. McDaniel. 529 U.S. 473,484,120 S.
Ct. 1595, 1603-04 (2000).
1. Speedy Trial Claim
Mr. Ramirez was charged by information with eight felony counts in July
2012. His jury trial was set for October 15,2012. Mr. Ramirez originally had a
public defender, but then he retained counsel 10 days before trial, who successfully
moved to continue the trial. Mr. Ramirez changed his attorney at least three more
times in the next year.

2

Case: 19-13902

Date Filed: 03/17/2020

Page: 3 of 6

In December 2013, Mr. Ramirez filed a pro se notice of the “expiration of
speedy trial period” under Florida Rule of Criminal Procedure 3.191. He was still
represented by counsel at this time. He filed a pro se motion' in January 2014
indicating that he had made an verbal demand for speedy trial in October 2012 and
arguing that his speedy-trial period had expired on December 4,2012. Mr.
Ramirez was still represented by counsel. That same month, Mr. Ramirez’s
attorney moved for a continuance, and the state court granted one, indicating on the
order that the right to a speedy trial had been waived.
In March 2014, Mr. Ramirez filed another pro se motion to discharge his
case based on a violation of his speedy-trial right. His attorney raised the speedy
trial issue to the court in a hearing on March 28, stating that Mr. Ramirez wanted
to argue that the court lost jurisdiction to take him to trial because of speedy-trial
violations. The state court then denied Mr. Ramirez’s motion, finding that he had
waived the right to a speedy trial by moving for a continuance in October 2012 and
that the defense was responsible for delays after this date. The state court offered
to begin trial that day, but Mr. Ramirez’s counsel was not ready. After this
exchange, Mr. Ramirez and his counsel asked for at least four more continuances
and filed numerous pre-trial motions. Mr. Ramirez did not plead to the charges
against him until October 2016.

3

A

Case: 19-13902

Date Filed: 03/17/2020

Page: 4 of 6

Reasonable jurists would not disagree that Mr. Ramirez’s speedy-trial right
was not violated. Under Florida law, a defendant waives his statutory right to a
speedy trial by moving for a continuance prior to the expiration of the speedy-trial
period, as Mr. Ramirez did. See Stewart v. State. 491 So. 2d 271,272 (Fla. 1986).
Beyond this, Mr. Ramirez cannot challenge the denial of a state speedy trial rule on
federal habeas review. See Davis v. Wainwright. 527 F.2d 261,264 (5th Cir.
1977) (holding that a violation of the Florida speedy-trial statute is “merely a
violation of a state procedural rule which... is not reviewable by the Federal
Courts on a petition for habeas”). For these reasons, reasonable jurists would not
debate the denial of Mr. Ramirez’s speedy trial claim.
2. Ineffective Assistance of Counsel Claim
Mr. Ramirez argues that his counsel was ineffective in failing to file a
motion to discharge or dismiss based on a violation of Florida’s speedy-trial rule.
Under Strickland v. Washington. 466 U.S. 668,694,131 S. Ct. 733, 739
(1984), a defendant can establish an ineffective assistance claim by showing his
“counsel’s performance fell below an objective standard of reasonableness,”
Padilla v. Kentucky. 559 U.S. 356,366,130 S. Ct 1473,1482 (2010) (quotation
marks omitted), and “a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different,”

4

Case: 19-13902

Date Filed: 03/17/2020

Page: 5 of 6

Strickland. 466 U.S, at 694,104 S. Ct at 2068, A “reasonable probability” is one
“sufficient to undermine confidence in the outcome.” Id.
Reasonable jurists would not debate that Mr. Ramirez’s counsel performed
effectively, First, in the March 28,2014 hearing, Mr. Ramirez’s counsel did raise
the argument that Ramirez’s case should be dismissed for speedy-trial violations.
Secondly, even if counsel did not formally file a motion to discharge the case, Mr.
Ramirez was not prejudiced by this decision because the motion would have failed
under Florida law. See Stewart. 491 So. 2d at 272 (describing waiver of Florida
right to a speedy trial where a defendant moves for a continuance before the
speedy-trial period expires); Chandler v. Moore. 240 F.3d 907,917 (11th Cir.
2001) (holding that “counsel was not ineffective for failing to raise a
nonmeritorious issue”),
3. Equal Protection and Due Process Claims
Mr. Ramirez argues that the state court denied him equal protection by
applying the law differently to him even though he was similarly situated. He also
argues that he was denied due process because he did not receive an evidentiary
hearing on his habeas claims.
Reasonable jurists would not debate the District Court’s denial of these
claims. Mr. Ramirez has not detailed any facts underlying his equal protection
claim, and we do not see any such facts in the record, so he has not shown that his
5

Case: 19-13902

Date Filed: 03/17/2020

Page: 6 of 6

Fourteenth Amendment rights were violated. See United States v. Jones, 614 F.2d
80, 82 (5th Cir. 1980) (rejecting a constitutional habeas claim because the
petitioner “states no specific facts in support of his allegation and there is nothing
in the record” supporting the claim).
Finally, Mr. Ramirez’s due process claim does not succeed under our
precedent. This Court has held that “a state court’s failure to conduct an
evidentiary hearing on a post-conviction motion does not constitute a cognizable
claim for habeas relief.” Carroll v. Sec’v, DOC, 574 F.3d 1354, 1366 (11th Cir.
2009) (rejecting a constitutional due process habeas claim on these grounds).
For these reasons, Mr. Ramirez has not made the requisite showing, and his
motion for a COA is DENIED.

ITED STATES CIRCUIT JUDGE

6

A?M)XX B

Case: 19-13902

Date Filed: 05/07/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13902-G
RAYMOND J. RAMIREZ,
a.k.a. Rene Ramirez,
Petitioner-Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent-Appellee.
Appeal from the United States District Court
for the Southern District of Florida

Before: MARTIN and JILL PRYOR, Circuit Judges.
BY THE COURT:
Mr. Raymond J. Ramirez has filed a motion for reconsideration, pursuant to
llthCir. R. 22-1(c) and 27-2, of this Court’s March 17, 2020, order denying a certificate of
appealability in his appeal from the denial of his underlying habeas corpus petition, 28 U.S.C.
§ 2254. Upon review, Mr. Ramirez’s motion for reconsideration is DENIED because he has
offered no new evidence or arguments of merit to warrant relief.

, Case 0:19-cv-61415-WPD Document 19 Entered on FLSD Docket 08/30/2019 Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 19-61415-CIV-DIMITROULEAS

RAYMOND J. RAMIREZ,
Petitioner,
vs.

MARK S. INCH, Sec’y D.O.C.,
Defendant.

FINAL JUDGMENT AND ORDER DENYING PETITION AND
DENYING CERTIFICATE OF APPEALABILITY
THIS CAUSE is before the Court upon the Final Judgment and Order Denying Habeas
Petition, signed on August 30, 2019. Accordingly, pursuant to Rule 58(a), Fed. R. Civ. Proc.,
and Rule 11(a), Section 2254 Proceedings, it is
1.

Judgment is entered on behalf of Respondent, against the Petitioner, Raymond J.

Ramirez.
2.

On consideration of a Certificate of Appealability, the Court will deny such

Certificate as this Court determines that Petitioner has not shown a violation of a substantial
constitutional right. This Court notes that pursuant to Rule 22(b)(1), Federal Rules of App.
Proc., Petitioner may now seek a certificate of appealability from the Eleventh Circuit Court of
Appeals.
DONE AND ORDERED in Chambers at Fort Lauderdale, Broward County, Florida, this
30th day of August, 2019.

United States District Judge

APPM)XX

.. Case 0:19-cv-61415-WPD Document 19 Entered on FLSD Docket 08/30/2019 Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 19-61415-CIV-DIMITROULEAS

RAYMOND J. RAMIREZ,
Petitioner,
vs.
MARK S. INCH, Sec’y D.O.C.,
Defendant.

FINAL JUDGMENT AND ORDER DENYING PETITION AND
DENYING CERTIFICATE OF APPEALABILITY
THIS CAUSE is before the Court upon the Final Judgment and Order Denying Habeas
Petition, signed on August 30, 2019. Accordingly, pursuant to Rule 58(a), Fed. R. Civ. Proc.,
and Rule 11(a), Section 2254 Proceedings, it is
1.

Judgment is entered on behalf of Respondent, against the Petitioner, Raymond J.

Ramirez.
2.

On consideration of a Certificate of Appealability, the Court will deny such

Certificate as this Court determines that Petitioner has not shown a violation of a substantial
constitutional right. This Court notes that pursuant to Rule 22(b)(1), Federal Rules of App.
Proc., Petitioner may now seek a certificate of appealability from the Eleventh Circuit Court of
Appeals.
DONE AND ORDERED in Chambers at Fort Lauderdale, Broward County, Florida, this
30th day of August, 2019.

WILLIAM P. DIMJTR
United States District Judge

!.

A.AV ' ■’
;

* A'
A AT:

i .!'! !’

’ A :■ - .

i

■

;v-:J

y

C'-'in.;;A'i

v '

Mm-rn Mu:^:"
aavaa

•.^ -,j^a,'-7v''-a.^.aaaatb-m^ag'v

aa
aaA

, v •/. ,■

:,r X

» t •

i-

>>:-’- -

r.‘ :A

>

;A A

•

■'

■•

:.*

-' ’.

ji

'

■■

•

A

' .f

...■

V

\
A-'

,

:

;■■ !

i

-A';

\i

■f ■■■

v,:Mr; ‘ .,A

;•

' l

*> ■

A*

.!!

A
‘Vo

-K

>^vy'! am;;-A li>AAA

t'.

/

Case: 0:19-cv-61415-WPD

Document #: 24 Entered on FLSD Docket: 10/31/2019

Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No.: 19-61415-CIV-DIMITROULEAS
Raymond J. Ramirez
Petitioner,
v.

Secretary, Florida Department of Corrections,
Respondent.

ORDER GRANTING APPLICATION FOR PERMISSION
TO APPEAL IN FORMA PAUPERIS FOR FILING FEES ONLY
THIS CAUSE is before the Court upon Petitioner’s Motion to Proceed In Forma Pauperis
on Appeal [DE 23] (“Motion”). The Court has carefully considered the Motion and is otherwise
fully advised in the premises.
Accordingly, it is ORDERED AND ADJUDGED as follows:
1. The Motion [DE 23] is hereby GRANTED in part, as to filing fees only.
2. The Clerk is DIRECTED to mail a copy of this Order to Petitioner at the address
below.
DONE AND ORDERED in Chambers at Fort Lauderdale, Broward County, Florida,
this 31st day of October, 2019.

WILLIAM P. DIMITR
United States District Judge

Case: 0:19-cv-614l5-WPD

Document #: 24 Entered on FLSD Docket: 10/31/2019

Copies provided to:
Counsel of Record
Raymond J. Ramirez, L55488
Everglades Correctional Institution
Inmate Mail/Parcels
1599 SW 187th Avenue
Miami, FL 33194

Page 2 of 2

:
' <:' ; -J

•

k

1N THE CIRCUIT COURT OF THE 17TH JUDICIAL CIRCUIT,
IN AND FOR BROWARD COUNTY, FLORIDA
STATE OF FLORIDA,

CASE NO: 12-9673cf10a

JUDGE: BARBARA MCCARTHY

Plaintiff,

DIVISION:

vs.
RAYMOND RAMIREZ
Defendant.

BN

ORDER DENYING DEFENDANT’S PRO SE MOTION FOR POST CONVICTION
RELIEF
THIS CAUSE having come before this Court upon the Defendant’s Pro Se Motion
For Post Conviction Relief, filed 9-29-17 and the Court having considered same, The
State’s Response and being fully advised in the premises, it is hereby,
ORDERED AND ADJUDGED that the Defendant’s Pro Se Motion For Post
Conviction Relief shall be DENIED in all respects.
Defendant has thirty (30) days to appeal from the rendition of this Order.
DONE AND ORDERED in Chambers on June
Broward County, Florida.

, 2018 at Fort Lauderdale,

Q0
u
BARBARA MCCARTHY, ffircuit CoTJrt
Copies furnished:
ASA N.Bloom, Esq.
R. Ramirez, DC#L55488
OKEECHOBEE CORRECTIONAL INSTITUTION
3420 N. E. 168th STREET
OKEECHOBEE, FL 34972

ie

AW&ndix

Amendment 5 Criminal actionsProvisions concerningDue process of law and just compensation clauses.
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment or indictment of
a Grand Jury, except in cases arising in the land or naval forces, or in the Militia, when in actual service in time of War or
public danger; nor shall any person be subject for the same offence to be twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against himself, nor be deprived of life, liberty, or property, without
due process of law; nor shall private property be taken for public use, without just compensation.
Amendment 6 Rights of the accused.
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an impartial jury of the
State and district wherein the crime shall have been committed, which district shall have been previously ascertained by
law, and to be informed of the nature and cause of the accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the Assistance of Counsel for his defence.
Amendment 14
Sec. 1. [Citizens of the United States.] All persons bom or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.
Sec. 2. [RepresentativesPower to reduce apportionment.] Representatives shall be apportioned among the several
States according to their respective numbers, counting the whole number of persons in each State, excluding Indians not
taxed. But when the right to vote at any election for the choice of electors for President and Vice-President of the United
States, Representatives in Congress, the Executive and Judicial officers of a State, or the members of the Legislature
thereof, is denied to any of the male inhabitants of such State, being twenty-one years of age, and citizens of the United
States, or in any way abridged, except for participation in rebellion, or other crime, the basis of representation therein shall
be reduced in the proportion which the number of such male citizens shall bear to the whole number of male citizens
twenty-one years of age in such State.
Sec. 3. [Disqualification to hold office.] No person shall be a Senator or Representative in Congress, or elector of
President and Vice-President, or hold any office, civil or military, under the United States, or under any State, who,
having previously taken an oath, as a member of Congress, or as an officer of the United States, or as a member of any
State legislature, or as an executive or judicial officer of any State, to support the Constitution of the United States, shall
have engaged in insurrection or rebellion against the same, or given aid or comfort to the enemies thereof. But Congress
may by a vote of two-thirds of each House, remove such disability.
Sec. 4. [Public debt not to be questionedDebts of the Confederacy and claims not to be paid.] The validity of the
public debt of the United States, authorized by law, including debts incurred for payment of pensions and bounties for
services in suppressing insurrection or rebellion, shall not be questioned. But neither the United States nor any State shall
assume or pay any debt or obligation incurred in aid of insurrection or rebellion against the United States, or any claim for
the loss or emancipation of any slave; but all such debts, obligations and claims shall be held illegal and void.
Sec. 5. [Power to enforce amendment.] The Congress shall have the power to enforce, by appropriate legislation, the
provisions of this article.
2253. Appeal
(a) In a habeas corpus proceeding or a proceeding under section 2255 [28 USCS 2255] before a district judge, the final
order shall be subject to review, on appeal, by the court of appeals for the circuit in which the proceeding is held.
(b) There shall be no right of appeal from a final order in a proceeding to test the validity of a warrant to remove to
another district or place for commitment or trial a person charged with a criminal offense against the United States, or to
test the validity of such persons detention pending removal proceedings.
(c) (1) Unless a circuit justice or judge issues a certificate of appealability, an appeal may not be taken to the court of
appeals from
(A) the final order in a habeas corpus proceeding in which the detention complained of arises out of process issued
by a State court; or
(B) the final order in a proceeding under section 2255 [28 USCS 2255].
(2) A certificate of appealability may issue under paragraph (1) only if the applicant has made a substantial showing
of the denial of a constitutional right.
(3) The certificate of appealability under paragraph (1) shall indicate which specific issue or issues satisfy the
showing required by paragraph (2).

I
No.

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)
VS.

Set hetaem fl aRtpa

— RESPONDENT(S)

PROOF OF SERVICE

I,

■SaMr^fa^l \, (^4Wv(t

do swear or declare that on this date,
, 202O_, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.

06l-fe,bPC 4

/•••'

The names and addresses of those served are as follows:

Mekn.e. Pale. WW, dauASei ffir rESBlrttW. IS 1C. M. t\rAsshr., qi\. fW-, WafrflviM L>gA ,fumsl

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

QcAt)Upif ^

,20^0

(Signature)

